Report No. SPO-2011-006                      March 22, 2011




                2010 Evaluation of the DoD

         Federal Voting Assistance Program (FVAP)
      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Our mission is to to provide assessment oversight that facilitates
                                                                                                                     informed, timely decision-making by senior leaders of the DoD and
                                                                                                                     the U.S. Congress, addressing priority national security objectives.
      Vision
         One professional team strengthening the integrity, efficiency, 

                   and effectiveness of the Department of Defense 
                                                  General Information
                               programs and operations. 

                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department 
                                                               Deputy Inspector General for Special Plans & Operations
                                                                                                                                                Department of Defense Inspector General
             of Defense personnel, programs and operations to support the 

                                                                                                                                                           400 Army Navy Drive
                  Department's mission and serve the public interest.


                                                                                                                                                        Arlington, VA 22202-4704




                                                                                                                                               Visit us at www.dodig.mil


                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




  This page intentionally left blank.
              Results in Brief: 2010 Evaluation of the

              DoD Federal Voting Assistance Program




What We Did
Section 1566, Title 10, United States Code, “Voting assistance; compliance assessments;
assistance,” as amended, requires that the Inspectors General of the Army, the Navy, the
Air Force, and the Marine Corps conduct an annual review of the effectiveness of their
voting assistance programs; and an annual review of the compliance with voting
assistance programs of that Service. Upon the completion of their annual reviews, each
Service Inspector General is required to submit to the DoD Inspector General a report on
the results. The statute requires that the DoD Inspector General then submit to Congress
a report on the effectiveness of voting assistance programs and the level of compliance
with voting assistance programs during the preceding calendar year as reported by each
of the Service Inspectors General. We met with the Service Inspectors General
representatives to discuss their data collection procedures, and the criteria they used as a
basis for the determinations of compliance and effectiveness of their voting assistance
programs.

What We Found
The Service Inspectors General reported that their programs were effective and compliant
with DoD regulations and public law, with a few minor exceptions they were addressing.
Data gathered by the Service Inspectors General for this report is consistent with the
format used for the 2007, 2008, and 2009 calendar years. Service Inspectors General
provided detailed Service-wide reporting in all five focus areas identified in DoD
Directive 1000.04, “Federal Voting Assistance Program (FVAP),” April 14, 2004.

The oversight programs of the Federal Voting Assistance Program Office and Services
continue to identify opportunities to improve effectiveness. The Services demonstrated in
their oversight reports that they have made special efforts to ensure deploying and
deployed personnel were afforded every opportunity to vote.

Details of the Service Inspectors General reports are discussed and summarized in tables
included in this report. This report consolidates the Service Inspectors General reports,
summarizes some of their key facts, and presents the results of our review of those
reports.




                                              i
 2010 Evaluation of the DoD Federal Voting Assistance Program
                     March 22, 2011 Report No. SPO-2011-006




This page intentionally left blank.




                ii
                                    2010 Evaluation of the DoD Federal Voting Assistance Program
                                                        March 22, 2011 Report No. SPO-2011-006

Table of Contents
RESULTS IN BRIEF: 2010 EVALUATION OF THE FEDERAL VOTING

ASSISTANCE PROGRAM .............................................................................................. i

     What We Did. ................................................................................................................ i

     What We Found. ............................................................................................................ i

OBJECTIVE ...................................................................................................................... 1

BACKGROUND ............................................................................................................... 1

REVIEW OF SERVICE IGs’ VOTING PROGRAM PROCEDURES ....................... 5

EFFECTIVENESS OF SERVICES’ VOTING PROGRAMS ..................................... 7

COMPLIANCE OF SERVICES’ VOTING PROGRAMS ........................................... 9

Appendix A. USD (P&R) 2007 MEMORANDUM .................................................... 15

Appendix B. ARMY INSPECTOR GENERAL REPORT ....................................... 17

Appendix C. NAVAL INSPECTOR GENERAL REPORT ..................................... 26

Appendix D. AIR FORCE INSPECTOR GENERAL REPORT ............................. 39

Appendix E. MARINE CORPS INSPECTOR GENERAL REPORT .................... 50

Appendix F. MILITARY AND OVERSEAS VOTER EMPOWERMENT ACT ..... 64

Appendix G. SCOPE AND METHODOLOGY ......................................................... 67

Appendix H. ANNOCEMENT MEMORANDUM ...................................................... 68

Appendix I. PRIOR COVERAGE ............................................................................... 71

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




  This page intentionally left blank.
                                       2010 Evaluation of the DoD Federal Voting Assistance Program
                                                           March 22, 2011 Report No. SPO-2011-006


Objective
The objectives of the DoD IG evaluation of the Federal Voting Assistance Program (FVAP) for
calendar year 2010 were to: (1) consolidate the Services’ FVAP assessment results into a single
DoD-wide report for Congress; and (2) report the effectiveness and level of compliance of the
Services’ voting assistance programs as reported by the Service Inspectors General.


Background
Legislation
Executive Order 12642 designated the Secretary of Defense as the Presidential Designee
responsible for administering the Uniformed and Overseas Citizens Absentee Voting Act
(UOCAVA 1). The Executive Order authorizes the Secretary of Defense to delegate the
responsibilities under the Act to other offices within the Department of Defense. Those
responsibilities have been delegated to the Undersecretary of Defense for Personnel and
Readiness and further to the Director of the Federal Voting Assistance Program.

Section 1566, Title 10, United States Code, “Voting assistance; compliance assessments;
assistance,” as amended, specifies the voting assistance roles of the DoD IG and that of the
Service Inspectors General. The statute specifies that the Service Inspectors General shall
conduct an annual review of the effectiveness and compliance of their voting assistance
programs, and upon completion, submit to the DoD IG a report on the review results. The statute
further specifies that the DoD IG shall submit to Congress a report on the effectiveness and
compliance of voting assistance programs during the preceding calendar year for the Army, the
Navy, the Air Force, and the Marine Corps, as reported by the Service Inspectors General. 2

Department of Defense Policy
Policies and instructions for the DoD Voting Assistance Program are described in DoD Directive
1000.04 (DoDD 1000.04), “Federal Voting Assistance Program (FVAP),” April 14, 2004
(Certified current as of April 23, 2007). DoDD 1000.04 stipulates that the USD (P&R)
administers the FVAP for the Secretary of Defense. The USD (P&R) manages the program
through the Office of the Director, Federal Voting Assistance Program.

DoDD 1000.04 requires that Service voting assistance officers (VAO) obtain and disseminate
voting information, voting forms, registration forms, and absentee ballot requests. VAOs are
also required to personally assist voters for all elections for Federal offices. Each Service is
required to establish and maintain a voting assistance website.




1
  Executive Order 12642, “Designation of the Secretary of Defense as the Presidential designee Under title 1 of the
  Uniformed and Overseas Citizens Absentee Voting Act, June 8, 1988
2
  Title 10 United States Code, Section 1566

                                                         1

                                     2010 Evaluation of the DoD Federal Voting Assistance Program
                                                         March 22, 2011 Report No. SPO-2011-006

DoD Instruction 1000.04 had been developed to replace DoD Directive 1000.04 and was in
coordination when Congress included the Military and Overseas Voter Empowerment Act
(MOVE) Act 3 in the 2010 National Defense Authorization Act. The new Instruction would also
replace the USD (P&R) memorandum, “Guidance in Implementing Voting Assistance
Programs,” September 19, 2007 (Appendix A). The Director, FVAP determined that the USD
(P&R) 2007 memorandum would remain in effect for use in preparation of the Service
Inspectors General 2010 FVAP reports, included as Appendices B, C, D, and E to this report.

The memorandum:
    •	 States that guidance and direction should be used as a baseline and “may be adjusted to
       meet specific requirements and cultures within each Service.” It essentially grants
       Service leadership the authority to tailor certain requirements.
    •	 Lowers grade requirements for assignment of VAOs. Provides flexibility to assign
       “quality individuals with enough authority as VAOs to get the job done.”
    •	 Adjusts the ratio requirement for VAOs vs. unit population. Allows flexibility to the
       Services to adjust their ratios to ensure coverage.
    •	 Streamlines delivery of the Registration and Absentee Ballot Request Federal Post Card
       Application (FPCA), Form SF-76, by adding a provision to permit electronic distribution
       of FPCA and receipt verification in lieu of face-to-face contact.
    •	 Clarifies the use of civilians as Installation VAOs, requesting their assignments be
       stabilized during the 18-month period from October of the year preceding a general
       election through March of the year following.

The MOVE Act was signed into law by President Barack Obama on October 28, 2009. The
overall purpose of the law is to help service members, their families and other overseas citizens
vote in U.S. elections. Most provisions applied to the November 2010 elections. Significant
new mandates were imposed on the States and local jurisdictions as well as on the Military
Services. Authority of the FVAP Program Office was expanded. A summary of the provisions
of the Act is included at Appendix F 4




3
  Military and Overseas Voter Empowerment Act is Subtitle H of the National Defense Authorization Act for Fiscal
Year 2010 (H.R. 2647, Pub.L. 111-84, 123 Stat. 2190.)
4
  As extracted from a summary formulated by the National Association of Secretaries of State

                                                       2

                                       2010 Evaluation of the DoD Federal Voting Assistance Program
                                                           March 22, 2011 Report No. SPO-2011-006

Service Regulations. Each Service supplements the DoD 1000.04 with Service-specific
regulations and instructions:
   •	 Army Regulation 608-20, “Army Voting Assistance Program,” October 28, 2004.
      •	 Office of the Chief of Naval Operations Instruction 1742.1B, “Navy

         Voting Assistance Program,” May 15, 2007.

      •	 Air Force Instruction 36-3107, “Voting Assistance Program,”

         September 10, 2003.

      •	 Marine Corps Order 1742.1A (with Changes 1-2), “Voter Registration Program,” May
         14, 2002.

The Federal Voting Assistance Program. The mandate of the FVAP is as follows:
                   The FVAP shall ensure that eligible voters receive … information
                   about registration and voting procedures and materials pertaining
                   to scheduled elections, including dates, offices, constitutional
                   amendments, and other ballot proposals… 5

Federal Voting Assistance Program Office. The Director, FVAP manages several
support activities including:
   •	 The FVAP website, which has evolved into an information portal for absentee voting.
       Found at www.fvap.gov, it provides voting assistance and information to uniformed
       absentee voters, their spouses and eligible dependents, and civilian U.S. voters residing
       overseas. It provides Federal, State (or links to State Internet sites), and local voting
       information. It also assists State and local election officials with up to date information
       on absentee voting as well as providing a clearing house for State information.

      •	 VAO training program is delivered on-site (even years) and web-based (all years).
      •	 A voting assistance guide with State-by-State information is available on line or in hard
         copy. The guide has been rewritten targeting VAOs and reduced from almost 400 pages
         to just over 300.
      •	 Documents to support and assist State and local election officials as well as Unit and
         Installation VAOs are available.




5
    Paragraph 4.2, DoD Directive 1000.04 , “Federal Voting Assistance Program (FVAP),” April 14, 2004

                                                        3

                                 2010 Evaluation of the DoD Federal Voting Assistance Program
                                                     March 22, 2011 Report No. SPO-2011-006


The Voting Assistance Program Process. Figure 1 illustrates the major elements of
the Services’ Voting Assistance Programs and lists their primary functions.

                           Figure 1. Voting Assistance Program Elements
                                                                                         .
                                                     Provide:
                                                        DoD Directive
                                                        VAO Training
                           USD (P&R)                    Voting Guide
                           FVAP Office                  FVAP Website
                                                        Program Oversight


                                                     Provide:
            Military Services                           Service Instructions
                Military Services                       Service Websites
                     Military Services
                          Military Services             Voting Materials
                                                        Service-level oversight


                                                     Assign VAOs
                          Installation &             Monitor VAO performance
                        Unit Commanders


                                                     Provide:
                         Voting Assistance              Voting Information
                          Officers (VAO)                Voting Materials
                                                        Training and Assistance


                       Uniformed Absentee            Register and Vote
                       Voters & Dependents


                                                     Compile Voting Results
                               States                Administer Elections




                                               4
                                2010 Evaluation of the DoD Federal Voting Assistance Program
                                                    March 22, 2011 Report No. SPO-2011-006


Review of Service IGs’ Voting Program
Procedures
We met with Service Inspectors General personnel overseeing the FVAP to ascertain,
understand, and document the processes and procedures that they follow to collect, assemble,
and prepare the annual report to the DoD IG for inclusion in the DoD IG report to Congress.
Each of the Service IGs handle the data collection processes and procedures differently while
complying with DoD Directive 1000.04, current DoD guidance on the implementation of 10
U.S.C. 1566.

Department of the Army Inspector General
The Department of the Army Inspector General Agency (DAIG) distributed inspection
requirements covering all five DoDIG report subject areas required by the DoD IG Annual
Report to select Army Commands, Army Service Component Commands, and direct reporting
units, with instructions to further distribute the inspection requirements to their subordinate
command IGs. The DAIG report includes data received in response to those distributed
requirements as well as inspection data compiled during the scheduled Army Voting Assistance
Program (AVAP) inspection for 2010. The 2010 AVAP inspection included interviews with 77
Unit VAO and commanders, or the commanders’ designated representatives, from over ten
locations throughout the Army. DAIG personnel contacted 823 Soldiers/civilians and leaders
through interview and sensing sessions during the inspection.

Naval Inspector General
The Naval Inspector General (NAVINSGEN) used a triangulation methodology consisting of
web-based surveys (10,492 in CY 2010), on-sight interviews with Voting Assistance Officers
(VAO), and program reviews during its CY 2010 scheduled Area Visits and Command
Inspections to independently assess compliance. A self-assessment checklist for Voting
Assistance Officers guided the inspection process. Additionally, NAVINSGEN utilized the
continuous monitoring oversight and data collection capability of the Voting Information
Management System (VIMS) which is managed by the Senior Navy Voting Representative, the
Commander, Naval Installation Command. This provides departmental level visibility regarding
Naval Voting Assistance Program (NVAP) program compliance and enabled a review of a
selective sample of approximately 30% (e.g., 444 commands) of all echelon rated commands
listed in the Standard Naval Distribution List for compliance with key program elements. The
NAVINSGEN overall NVAP compliance assessment is based on direct findings from three
Echelon II Command Inspections, four Area Visits, and an assessment of the Department's
Voting Assistance Program structure. Of seven inspections/area visits, two were OCONUS.
While minor discrepancies are routinely found and corrected at Echelon II or command
inspections, the NAVINSGEN principal concern is that the program structural mechanisms are
in place to continue to identify both risks and opportunities in the NVAP.




                                               5

                                2010 Evaluation of the DoD Federal Voting Assistance Program
                                                    March 22, 2011 Report No. SPO-2011-006

Air Force Inspector General
The Air Force Inspector General inspected the Air Force Federal Voting Assistance Program at
all command levels during 157 Compliance Inspections conducted during CY 2010. Evaluations
were made by conducting personal interviews with Installation VAOs and Unit VAOs, reviewing
program implementation and management, and visiting units at the installation level. The
overwhelming majority of Air Force wings and installations have effectively implemented
U.S.C. statutory requirements, DOD policy and procedures issued to establish viable Federal
VotingAssistance Programs. The Air Force was consistent in emphasizing the importance of
each Airman exercising the right to vote.

Inspector General of the United States Marine Corps
The Inspector General for the Marine Corps (IGMC) inspects every Marine Force Command,
Marine Expeditionary Force, Installation, and Major Subordinate Command for compliance and
effectiveness on a triennial basis, at a minimum. Each organization with a Commanding General
has a Commanding General Inspection Program (CGIP) that inspects their units biannually. The
Automated Inspection Reporting System (AIRS) Report 210 was used by both the IGMC and
CGIP to ensure the standardization of all Voting Assistance Program inspections. The Inspection
process included interviews with Major Command Voting Officers (MCVO), Installation VAOs,
Unit VAOs, Commanding Officers, and Marines randomly selected within Marine units. The
inspection team reviewed documents and procedures to ensure compliance with all Marine Corps
orders and directives. The team also inspected facilities to ensure voting assistance materials
were displayed in accordance with directions given in Marine Corps Order 1742.1A. Each
inspection was graded as: Mission Capable or Non-Mission Capable, with findings,
discrepancies, and recommendations provided to improve the inspected units' programs. Items
identified with findings, discrepancies and recommendations are reviewed during subsequent
inspection(s).




                                              6

                                        2010 Evaluation of the DoD Federal Voting Assistance Program
                                                            March 22, 2011 Report No. SPO-2011-006


Effectiveness of Services’ Voting Programs
The Service Inspectors General all reported that their voting assistance programs were effective
and in compliance with DoD regulations and public law.

The Army Inspector General determination of effectiveness is based on results of
interviews with 77 Unit VAOs and commanders, or the commanders’ designated
representatives at over ten Army locations. Army Inspector General personnel also
contacted 823 soldiers and civilian personnel through interviews and sensing sessions
during the inspections.

                  … the US Army has an effective and compliant Voting Assistance Program and
                  continues to improve the program to ensure Soldiers, civilians, Family members
                  and Army contractors overseas are encouraged and enabled to be full
                  participants in the election process no matter where they are. The 2010 AVAP
                  Inspection found that the AVAP is functioning. The inspection team found that
                  Soldiers, their Family members, and OCONUS DA civilians and contractors are
                  given the opportunity to register and cast absentee ballots;… The Army
                  continuously evaluates and seeks ways to improve the AVAP. According to the
                  AVAP Office, initiatives include: the appointment of 6,743 VAOs to provide
                  assistance to Soldiers, eligible Family members and DA civilians and a special
                  ballot return postage label allowing voters to track their completed ballot from
                  their overseas location all the way to their local election official. 6

The Naval Inspector General determination of effectiveness is based on web-based
survey results from over 10, 492 respondents, on-sight interviews with VAOs, and
Voting Program reviews during scheduled Naval area visits and Command inspections.

                  NAVINSGEN finds the NAVAP compliant.…and effective. The compliance
                  assessment is based on our direct findings from three Echelon II Command
                  Inspections, four Area Visits, and assessment of the Department’s Voting
                  Assistance Program structure…..The effectiveness determination is based on:
                  (1) Web-based survey results from 10,492 respondents, to three voting related
                  questions…..(2) A subjective evaluation of departmental level initiatives,
                  outreach, and campaigns. 7

The Air Force Inspector General determination of effectiveness is based on results of 157
Voting Assistance Program compliance inspections at all Air Force levels. Evaluations
were made by conducting personal interviews with VAOs, reviewing program
implementation and management.

                  The USAF Voting Assistance Program is effective and remains compliant. All
                  identified deficiencies have been corrected and annotated in accordance with Air
                  Force Instruction (AFI) 36-3107, Voting Assistance Program and AFI 90-201,
                  Inspector General Activities. The overwhelming majority of Air Force wings
                  and installations have effectively implemented USC, DOD policy, directives,


6
    U.S. Army IG Report at Appendix B
7
    U.S. Navy IG Report at Appendix C

                                                         7

                                        2010 Evaluation of the DoD Federal Voting Assistance Program
                                                            March 22, 2011 Report No. SPO-2011-006

                   and procedures establishing viable Federal Voting Assistance Programs. The Air
                   Force was consistent in emphasizing the importance of each Airman exercising
                   the right to vote. 8

The Marine Corps Inspector General determination of effectiveness is based on results of 21
inspections at Marine Force Commands, Marine Expeditionary Forces, Installations, and Major
Subordinate Commands. These inspections included interviews with Major Command Voting
Officers, VAOs, Commanding Officers, and randomly selected Marines.

                   The results of the IGMC and the CGIP inspections throughout the past year and
                   this annual assessment verifies the Marine Corps has an effective Voter
                   Assistance Program and is in compliance with requirements…. The IGMC
                   inspection results and this assessment have confirmed that the Marine Corps
                   VAP operates in accordance with established policies and procedures and is
                   effective in assisting all eligible voters. We are very confident that all service
                   members and their eligible family members were aware of all 2010 voting
                   events and were provided assistance and documentation for all absentee voting
                   requirements. 9




8
    U.S. Air Force IG Report at Appendix D
9
    U.S. Marine Corps IG Report at Appendix E

                                                           8

                                2010 Evaluation of the DoD Federal Voting Assistance Program
                                                    March 22, 2011 Report No. SPO-2011-006

Compliance of Services’ Voting Programs
Summary
All four Services reported compliance with DoD Directive 1000.04 requirements and USD
(P&R) Memorandum on “Guidance in Implementing Voting Assistance Programs,” September
19, 2007 (still in effect). Installation VAOs (IVAO) and Unit VAOs (UVAO) have specific
duties and responsibilities under the Directive to ensure voters obtain voting information and
materials in a timely fashion. The Service Inspectors General determinations of compliance are
further based on the results of their reviews of compliance with public law, DoD Directives, and
guidance issued by the USD (P&R). Those results are summarized in tables one through five in
this report.

The following five compliance focus areas associated with the Federal Voting Assistance
Program include:

   •	 Personnel Assignments - Assign quality individuals with enough authority as VAOs to
      manage the Voting Program.
   •	 Training - Ensure VAOs are receiving required training to perform VAO duties.
   •	 Material Distribution - Ensure adequate numbers of Standard Form 76 (SF 76) are
      available for military members and their voting–age dependents to register and request a
      ballot.
   •	 Communication and Information Network - Publicize and maintain a visible program.
   •	 Commanders/Installation Level Involvement - Ensure there is an increased emphasis
      on the Voting Program and associated requirements.
In each of these focus areas, DoDD 1000.04 has established multiple indicators of
compliance. Service Inspectors General provided Service-wide responses regarding
compliance with these focus areas: (See the following Tables one through five).




                                               9

                                        2010 Evaluation of the DoD Federal Voting Assistance Program
                                                            March 22, 2011 Report No. SPO-2011-006

   Personnel Assignments
   The Service Inspectors General reported their programs were compliant in this focus area (Table
   1). For all Services, a number of VAOs did not meet DoDD 1000.04 requirements for
   rank/grade. They were, however, in compliance with guidance provided by the USD (P&R)
   Memorandum, which allows flexibility in grade requirements to favor assignment of VAOs who
   are interested and dedicated. The FVAP Program Office intends to incorporate similar
   provisions in DoD Instruction 1000.04. The Navy reported that discrepancies are corrected
   during command inspections and area visits.

                                 Table 1. Personnel Assignments

Item Requirement                Authority          Army            Navy          Air Force         Marine Corps

A.1 VAO assigned at the      DODD 1000.04,         Yes             Yes, 88%      Yes, 2            Yes, all 21
    appropriate grade level. Para 5.2.1.4.1,                                     deficiencies in   commands
                             Para 5.2.1.4.2 &                                    157 compliance    inspected
                             USD(P&R)                                            inspections
                             Guidance Ltr
A.2 Unit VAO assigned at     DODD 1000.04,         Yes, in most      Yes, 100%   Yes, 1            Yes, all 12
    level of command.        Para 5.2.1.4.1 &      cases. Army IG                deficiency in 157 individual units
                             Para 5.2.1.4.2        to send after                 compliance        inspected
                                                   action guidance               inspections
                                                   and conduct
                                                   followup.
A.3 Maximum number of           DODD 1000.04,      Not in all cases, Yes, 100%   Yes, zero         Yes, all units
    voters that can be          Para 5.2.1.4.2     however, all                  deficiencies in   inspected
    represented by VAO                             affected given                157 compliance
    adhered to.                                    opportunity to                inspections
                                                   vote. Army IG to
                                                   send after action
                                                   guidance and
                                                   conduct followup.
A.4 Unit VAO of the rank        DODD 1000.04,      Yes, in most      Yes, 87%    Yes, 2            Yes, all 12
    O-2/E-7 civilian            Para 5.2.1.4.2 &   cases. Army IG                deficiencies in   units inspected
    equivalent, or above        USD(P&R)           to send after                 157 compliance
    designated in writing for   Guidance           action guidance               inspections
    each unit of 25 or more                        and conduct
    permanently assigned                           followup.
    members.
A.5 Senior Service              DODD 1000.04,      Yes, BG         Yes, VADM Yes, SES              Yes, NAF-O6
    Representative at Flag      Para 5.2.1.3
    Rank/Civilian equivalent
    appointed.
A.6 Service Voting Action       DODD 1000.04,      Yes, GS-12      Yes, O-4      Yes, GS-12        Yes, GS-14
    Officer is O-4/E-8/GS-12    Para 5.2.1.3
    or above.
A.7 Commissioned Officer        UOCAVA &           Yes, 100%       Yes, 100%     Yes, zero         Yes
    authorized to administer    DODD 1000.04,                                    deficiencies in
    oath.                       Para 5.2.1.4.2                                   157 compliance
                                                                                 inspections




                                                         10 

                                    2010 Evaluation of the DoD Federal Voting Assistance Program
                                                        March 22, 2011 Report No. SPO-2011-006


Training
The Service Inspectors General reported their programs were compliant in this focus area (see
Table 2). All Services reported that they provided information to recruits, basic trainees, and
both preparing to deploy and deployed Service members. The Services , with minor exceptions,
ensured training was provided to VAOs at all levels. The Navy reported that discrepancies are
corrected during command inspections and area visits.

                                                 Table 2. Training

                                                                                                        Marine
Item   Requirement               Authority          Army               Navy           Air Force
                                                                                                        Corps

B.1    VAOs received             Title 10,          Yes, in most       Yes, 91%       Yes, 13,          Yes, all 21
       training.                 Section 1566,      cases.                            mostly            VAOs
                                 Para f(1)          Followup will                     documentation     inspected
                                                    be conducted.                     deficiencies in
                                                                                      157
                                                                                      compliance
                                                                                      inspections
B.2    MAJCOM, installations     DODD               Yes, in most       Yes, 71%       Yes, 8,           Yes, all
       and Unit VAO attend       1000.04, Para      cases. Army                       documentation     VAOs
       FVAP workshop             5.2.1.15           IG to send after                  deficiencies in   inspected
       during even numbered                         action guidance                   157
       years with Federal                           and conduct                       compliance
       elections.                                   followup.                         inspections
B.3    Basic training and        DODD               Yes                Yes,           Yes, zero         Yes, at all
       command courses           1000.04, Para                         30-minute      deficiencies in   levels of
       emphasize and             5.2.1.14                              briefing       157               training
       advertise voting                                                               compliance
       assistance programs.                                                           inspections
B. 4   Train units preparing     DODD               Yes, during the    Yes, in pre-   Yes, 4            Yes, during
       for deployment.           1000.04, Para      mobility           deployment     deficiencies in   pre-
                                 5.2.1.14           process            checklist      157               deployment
                                                                                      compliance        briefing
                                                                                      inspections
B.5    Recruitment personnel     DODD               Yes                Yes, 100%      Yes, zero         Yes
       informed of policies      1344.13, Para                                        deficiencies in
       and received training     5.4.2                                                157
       to carry out voter                                                             compliance
       registration                                                                   inspections
       assistance.
B. 6   Train Service             DODD               Yes, in most       Yes            Yes, 6            Yes, all 21
       members on absentee       1000.04, Para      cases. Army IG                    deficiencies in   VAOs
       registration and voting   5.2.1.14           to send after                     157               inspected
       procedures in Federal                        action guidance                   compliance
       Election years.                              and conduct                       inspections
                                                    followup.




                                                     11 

                                         2010 Evaluation of the DoD Federal Voting Assistance Program
                                                             March 22, 2011 Report No. SPO-2011-006


      Material Distribution
      The Service Inspectors General reported their programs were compliant in this focus area (see
      Table 3). The Navy reported that discrepancies are corrected during command inspections and
      area visits.

                                               Table 3. Material Distribution
Item    Requirement                Authority       Army               Navy          Air Force         Marine Corps


C.1     UVAOs hand-deliver         DODD            Yes, in the        Yes, 81%      Yes, 11           Yes
        SF76s to eligible          1000.04, Para   majority of                      deficiencies in
        voters by 15 January       5.2.1.6.1 &     cases                            157
        of each year. Develop      5.2.1.5.3                                        compliance
        a system to ensure in-                                                      inspections
        hand delivery.
C.2     National Voter             Title 10,       Yes                Yes, after    Yes, 1            Not in all
        Registration form          Subtitle A,                        30-minute     deficiency in     cases;
        made available to          Part II,                           voting        157               corrective
        enlistees.                 Chapter 80,                        briefing at   compliance        actions
                                   Section 1566,                      boot camp     inspections       underway
                                   Para i(2)
C.3     Network established to     DODD            Yes                Yes           Yes, 5            Yes
        distribute voter           1000.04, Para                                    deficiencies in
        information.               5.2.1.5.2                                        157
                                                                                    compliance
                                                                                    inspections
C.4     Designated day or          DODD            Yes; most units    Yes, in       Yes, zero         Yes
        days to provide for        1000.04, Para   promoted voter     conjunction   deficiencies in
        voter awareness.           5.2.1.11        awareness          with Armed    157
                                                   week. Army IG      Forces        compliance
                                                   to send after      Voting Week   inspections
                                                   action guidance.
C.5     Prospective enlistees      DODD            Yes                Yes           Yes, 2            Yes
        are provided a DD          1344.13, Para                                    deficiencies in
        Form 2644 "Mail Voter      5.4.4.1                                          157
        Registration                                                                compliance
        Application" and DD                                                         inspections
        Form 2645 "Voter
        Registration
        Information.
C.6     Recruitment offices        DODD            Yes                Yes           Yes, zero         Yes
        transmit registration      1344.13,Para                                     deficiencies in
        applications in a timely   5.4.4.3                                          157
        manner.                                                                     compliance
                                                                                    inspections
C.7     Sufficient voting          DODD            Yes, in most       Yes           Yes, 1            Yes
        materials are on-hand.     1000.04, Para   cases, also                      deficiency in
                                   5.2.1.7         provided                         157
                                                   electronically.                  compliance
                                                   Army IG to send                  inspections
                                                   after action
                                                   guidance.


                                                         12 

                                     2010 Evaluation of the DoD Federal Voting Assistance Program
                                                         March 22, 2011 Report No. SPO-2011-006

Communication and Information Network
The Service Inspectors General reported their programs were compliant (see Table 4). The
Services reported that they ensured the VAO Program was highly visible and publicized. For
Item D.4, in locations where VAO contact information could not be listed with the base operator,
the Services stated their websites contained contact information. Installations routinely provided
voting program information on the websites. The Service Inspectors General reports indicate
that efforts were made at all levels to ensure voting assistance was available and publicized.

                                Table 4. Communication and Information Network

                                                                                                    Marine
Item   Requirement                   Authority       Army            Navy           Air Force
                                                                                                    Corps

D.1    Voting Assistance             DODD            Yes             Yes            Yes, zero       Yes
       internet homepage is          1000.04 Para                                   deficiencies
       maintained that includes      5.2.1.10                                       in 157
       names and links to                                                           compliance
       VAOs, procedures to                                                          inspections
       order voting materials
       and links to other
       Federal & State voting
       websites.
D.2    Designated location on        DODD            No specific     Yes,           Yes, 1          Yes
       base, installation, or ship   1000.04,        location        locations      deficiency in
       where voting material &       Para 5.2.1.10   established     vary by        157
       assistance is available.                      but materials   command        compliance
                                                     available                      inspections
                                                     base-wide.
                                                     Corrective
                                                     actions
                                                     underway to
                                                     establish
                                                     specific
                                                     locations.
D.3    Established and               DODD            Yes             Yes,           Yes, 1          Yes
       published a special           1000.04,                        through        deficiency in
       telephone service, the        Para 5.2.1.12                   “one-stop”     157
       "Voting Action Line," to                                      customer       compliance
       link Unit VAOs with                                           service toll   inspections
       Service VAOs.                                                 free number
D.4    Provide telephone             DODD            Not in hard     No, most       Yes, 2          Yes, 16 of 18
       operators at every            1000.4,         copy; contact   commands       deficiencies    VAOs
       military installation with    Para 5.2.1.13   info provided   do not have    in 157          inspected
       names, e-mail addresses                       online to all   operators;     compliance      due to
       and telephone number of                       units           numbers        inspections     personnel
       Unit and Installation                                         posted on                      turnover.
       VAOs.                                                         unit web                       Corrective
                                                                     pages                          actions
                                                                                                    underway.




                                                     13 

                                 2010 Evaluation of the DoD Federal Voting Assistance Program
                                                     March 22, 2011 Report No. SPO-2011-006


Commanders/Installation Level Involvement
The Service Inspectors General reported their programs were compliant (see Table 5). The
Service Inspectors General reported that commanders at all levels understood and supported the
voting program, ensuring personnel had every opportunity to exercise their right to vote.
Services added the Voting Program to their instructions/memoranda and inspection checklists,
increasing the visibility and emphasizing the importance of the program.

                              Table 5. Commanders/Installation Level Involvement

                                                                                                 Marine
Item   Requirement            Authority   Army                     Navy          Air Force
                                                                                                 Corps


E.1    MAJCOMS, etc.,         DODD        Yes                      Yes, also     Yes, 3          Yes
       continually evaluate   1000.04                              required in   deficiencies
       voting programs.       Para                                 OPNAVINST     in 157
                              5.2.1.9                                            compliance
                                                                                 inspections
E.2    Command-wide           DODD        Yes, in most units       Yes           Yes, 4          Yes
       awareness &            1000.04,    surveyed. Units                        deficiencies
       assistance program     Para        developed their                        in 157
       and activities are     5.2.1.11    programs IAW the                       compliance
       developed during                   requirement and                        inspections
       Armed Forces                       most effective
       Voters Week.                       method for their unit.
E.3    Written policies to    DODD        Yes, in most cases.      Yes, also     Yes, zero       Yes
       support eligible       1000.04,    Army will issue after    required in   deficiencies
       military members       Para        action guidance.         OPNAVINST     in 157
       and their              5.2.1.1                                            compliance
       dependents.                                                               inspections
E.4    Installation level     DODD        Yes                      Yes, also     Yes, 1          Yes
       reviews/inspections.   1000.04,                             required in   deficiency in
                              Para                                 OPNAVINST     157
                              5.2.1.8                                            compliance
                                                                                 inspections


E.5    VAO's performance      DODD        Yes, in most units.      Yes also      Yes, 1          Yes
       is documented in the   1000.04,    Army will send after     required in   deficiency in
       Evaluation.            Para        action guidance to       OPNAVINST     157
                              5.2.1.16    ensure compliance at                   compliance
                                          all units.                             inspections




                                                 14 

              2010 Evaluation of the DoD Federal Voting Assistance Program
                                  March 22, 2011 Report No. SPO-2011-006


Appendix A. USD (P&R) 2007 Memorandum





                           15 

                     2010 Evaluation of the DoD Federal Voting Assistance Program
                                         March 22, 2011 Report No. SPO-2011-006




Appendix B. Department of the Army Inspector General Report



                                  16 

               2010 Evaluation of the DoD Federal Voting Assistance Program
                                   March 22, 2011 Report No. SPO-2011-006


Appendix B. Department of the Army Inspector
General Report




                            17 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             18 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             19 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             20 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             21 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             22 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             23 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             24 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             25 

               2010 Evaluation of the DoD Federal Voting Assistance Program
                                   March 22, 2011 Report No. SPO-2011-006


Appendix C. Department of the Naval Inspector
General Report




                            26 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             27 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             28 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             29 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             30 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             31 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             32 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             33 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             34 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             35 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             36 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             37 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             38 

               2010 Evaluation of the DoD Federal Voting Assistance Program
                                   March 22, 2011 Report No. SPO-2011-006

Appendix D. Department of the Air Force
Inspector General Report




                            39 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             40 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             41 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             42 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             43 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             44 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             45 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             46 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             47 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             48 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             49 

               2010 Evaluation of the DoD Federal Voting Assistance Program
                                   March 22, 2011 Report No. SPO-2011-006


Appendix E. Marine Corps Inspector General
Report




                            50 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             51 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             52 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             53 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             54 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             55 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             56 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             57 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             58 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             59 

20100 E
201   Evval
         aluuat
             atiion ooff tthhe Do
                               DoD F
                                   Fed
                                    eder
                                       eral
                                         al V
                                            Vooting AAsssistance
                                                            ance Pr
                                                                 Program
                            March 22, 2011 RReepor
                                                portt No. SP
                                                           SPO-2011-
                                                                2011-006
                                                                     006




                60 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             61 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             62 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             63 

                                 2010 Evaluation of the DoD Federal Voting Assistance Program
                                                     March 22, 2011 Report No. SPO-2011-006


Appendix F. Military and Overseas Voter
Empowerment Act
Background
Enacted by the 111th Congress, as Subtitle H of HR 2647, of the National Defense Authorization
Act for Fiscal Year 2010, the MOVE Act was designed to address continuing identified issues
involved with providing to military personnel and overseas citizens their right to vote and to
have their votes counted. The MOVE act placed new authority and responsibility on the
Secretary of Defense as Executive Agent for the President. The Secretary of Defense designated
the Director, FVAP, who resides in the Office of the Under Secretary of Defense for Personnel
and Readiness to carry out those responsibilities.

The provisions of the MOVE Act pertaining to the Department of Defense/FVAP as the
delegated Presidential Designee include:

   A. Election Official Database (Sec 577(e)(4))

       •	 The FVAP must maintain a public online database that includes State contact
          information for Federal elections, including the single State office designated under
          the Uniformed and Overseas Citizens Absentee Voting Act (UOCAVA) and the
          designated means of electronic communication that each State has established to
          communicate with UOCAVA voters.

   B.	 Ballot Collection/Delivery (Sec. 580)

       •	 The Department of Defense must establish procedures for collecting and delivering
          the absentee ballots of voters who are overseas by reason of active duty or service.
          The procedures only apply to regularly scheduled General Elections for Federal
          office.

       •	 The Department of Defense must utilize the United States Postal Service expedited
          delivery service for mailing voted absentee ballots to the appropriate election official
          in time to be counted.

       •	 The expedited service must be available for any ballot collected before noon on the
          seventh day receding the date of the election.

       •	 No postage is required on the absentee ballots collected and delivered under these
          procedures.

       •	 The ballots collected under these procedures are postmarked as of the date they are
          mailed.
                                                64 

                             2010 Evaluation of the DoD Federal Voting Assistance Program
                                                 March 22, 2011 Report No. SPO-2011-006

   •	 The Department of Defense must inform and educate uniformed service voters about
      the ballot collection and delivery procedures.

   •	 The Department of Defense must take action to: (1) ensure the privacy of voters who
      cast ballots at Department of Defense locations or facilities and (2) protect the
      privacy of absentee ballots when the ballots are in the control or possession of the
      Department.

C. Voter Registration Outreach (Sec. 583)

   •	 The Federal Voting Assistance Program (FVAP) must develop online portals to
      inform absent uniformed service voters about voter registration and absentee ballot
      procedures.

   •	 FVAP must establish a program to provide absent uniformed service voters with voter
      registration information and resources through the military Global Network. The
      information must be provided 90, 60, and 30 days prior to each Federal election.

   •	 No later than 180 days after the MOVE Act is enacted, the Secretaries of each
      military department must designate an office on each installation to provide voter
      registration and absentee ballot information to uniformed service members and their
      family members. The Department of Defense must inform absent uniformed service
      members of the assistance available at the designated offices.

   •	 The Secretary of Defense may authorize the Secretaries of the Military Departments
      to designate offices on military installations as voter registration agencies under the
      National Voter Registration Act.

D. Reporting (Sec. 584 & 586)

   •	 The Department of Defense must work with the Election Assistance Commission
      (EAC) and the Chief Election Official in each State to develop standards for the
      States to report on the number of ballots transmitted and received and other data as
      the Department determines appropriate.

   •	 No later than 180 days after enactment of the MOVE Act, the Department of Defense
      must submit to Congress a report on (1) the status of implementing the ballot
      collection and delivery procedures; (2) an assessment of the effectiveness of the
      Voting Assistance Officer Program; and (3) a description of steps taken towards
      implementation of voter registration assistance on military installations.

   •	 No later than March 31st of each year, the Department of Defense must submit to
      Congress a report containing: (1) an assessment of FVAP activities; (2) an assessment

                                           65 

                                 2010 Evaluation of the DoD Federal Voting Assistance Program
                                                     March 22, 2011 Report No. SPO-2011-006

           of voter registration and participation by absent uniformed service voter; (3) an
           assessment of voter registration and participation by overseas voters not affiliated
           with the uniformed services; (4) a description of the cooperation between States and
           the Federal Government; (5) a description of voter registration assistance programs
           implemented by each military department; (6) the number of absent uniformed
           service voters who utilized voter registration assistance provided at military
           installations; and (7) in the case of a report submitted in the years following a
           regularly scheduled Federal election, a description of the procedures used to collect
           and deliver absentee ballots for expedited service, including the number of ballots
           collected and delivered, and the number of ballots which were not delivered by the
           time the polls closed on Election Day.

The provisions of the MOVE Act also contained standards for absentee voter registration,
absentee ballot distribution, absentee ballot return, and absentee ballots counting that were
directive on State and local governments. The FVAP Program Office was charged with liaison
with State and local jurisdictions. Additionally, the US Attorney General (Department of
Justice) was given responsibilities related to State and local jurisdiction compliance enforcement.




                                                66 

                                2010 Evaluation of the DoD Federal Voting Assistance Program
                                                    March 22, 2011 Report No. SPO-2011-006


Appendix G. Scope and Methodology
Service Reporting
The John Warner National Defense Authorization Act for Fiscal Year 2007 amended Section
1566, 10 U.S.C., eliminating the requirement for unannounced DoD IG assessments at ten or
more DoD installations. The statute now requires the Inspectors General of the Army, the Navy,
the Air Force, and the Marine Corps to conduct an annual review of the effectiveness of voting
assistance programs, and an annual review of the compliance with voting assistance programs of
their Service. Upon the completion of their annual reviews, each Service Inspector General is
required to submit a report on the results of such reviews to the DoD IG. The statute requires
that the DoD IG submit to Congress a report on the effectiveness and the level of compliance
during the preceding calendar year of the voting assistance programs of each of the Services.
The DoD IG did not independently verify or validate the Service Inspectors General reports.
This report consolidates the results of the Service Inspectors Generals evaluations.

We reviewed the Service Inspectors General reports on the effectiveness and compliance of their
voting assistance programs. The Service Inspectors General provided detailed Service-wide
compliance reporting in all five compliance focus areas identified in DoD Directive 1000.04,
“Federal Voting Assistance Program (FVAP),” April 14, 2004. The DoD IG developed a
template based on DoDD 1000.04 in 2006 for reporting in five survey areas: (1) Personnel
Assignments; (2) Training, (3) Voting Material Distribution; (4) Communication and
Information Network; and (5) Commanders/ Installation Level Involvement. The template was
also used in reports for 2007 through 2009 to standardize reporting by the Services IGs.




                                              67 

             2010 Evaluation of the DoD Federal Voting Assistance Program
                                 March 22, 2011 Report No. SPO-2011-006


Appendix H. Announcement Memorandum




                          68 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             69 

2010 Evaluation of the DoD Federal Voting Assistance Program
                    March 22, 2011 Report No. SPO-2011-006




             70 

                                2010 Evaluation of the DoD Federal Voting Assistance Program
                                                    March 22, 2011 Report No. SPO-2011-006


Appendix I. Prior Coverage
During the last 5 years, the Government Accountability Office (GAO), DoD, and the Department
of State have issued reports on FVAP and overseas absentee voting. Unrestricted GAO reports
can be accessed over the Internet at www.gao.gov. Unrestricted DoD IG reports completed since
October 24, 2008 by the Special Plans and Operations Directorate can be accessed at
http://www.dodig.mil/spo/reports.html. Previously issued FVAP reports are at
http://www.dodig.mil/Inspections/IE/Reports.htm

GAO
GAO Report No. GAO-10-476, Elections: DOD Can Strengthen Evaluation of Its Absentee
Voting Assistance Program, June 17, 2010

GAO Report No. GAO-07-774, Elections: Action Plans Needed to Fully Address Challenges in
Electronic Absentee Voting Initiatives for Military and Overseas Citizens, June 14, 2007

GAO Report No. GAO-06-1134T, Testimony Before the Committee on Armed Services, United
States Senate, “Elections: DOD Expands Voting Assistance to Military Absentee Voters, but
Challenges Remain,” September 28, 2006

GAO Report No. GAO-06-521, “Elections: Absentee Voting Assistance to Military and
Overseas Citizens Increased for the 2004 General Election, but Challenges Remain,” April 7,
2006

DoD
DoD IG Report No. SPO-2010-004, “2009 Evaluation of the DoD Voting Assistance Program,”
September 27, 2010

DoD IG Report No. IE-2009-005, “2008 Evaluation of the DoD Voting Assistance Program,”
April 30, 2009

DoD IG Report No. IE-2008-002, “2007 Evaluation of the Federal Voting Assistance Program in
the Department of Defense,” March 31, 2008

DoD IG Report No. IE-2007-004, “2006 Evaluation of the Voting Assistance Program,”
March 31, 2007

DoD IG Report No. IE-2006-001, “Evaluation of the Voting Assistance Program,” March 31,
2006




                                              71 

 2010 Evaluation of the DoD Federal Voting Assistance Program
                     March 22, 2011 Report No. SPO-2011-006




This page intentionally left blank.




                72 

      Inspector General                                                                                             Special Plans & Operations
                 United States Department of Defense                                                                 Provide assessment oversight that addresses priority national security
                                                                                                                     objectives to facilitate informed, timely decision-making by senior
                                                                                                                     leaders of the DOD and the U.S. Congress.
      Vision
         One professional team strengthening the integrity, efficiency,
                   and effectiveness of the Department of Defense                                                    General Information
                               programs and operations.
                                                                                                                       Forward questions or comments concerning this assessment and report and other
       Mission                                                                                                         activities conducted by the Office of Special Plans & Operations to spo@dodig.mil


         Promote integrity, accountability, and improvement of Department                                                                 Deputy Inspector General for Special Plans & Operations


                                                                                                                                                Department of Defense Inspector General


             of Defense personnel, programs and operations to support the
                                                                                                                                                           400 Army Navy Drive


                  Department's mission and serve the public interest.
                                                                                                                                                        Arlington, VA 22202-4704






                                                                                                                                               Visit us at www.dodig.mil 



                                                                                                                       DEPARTMENT OF DEFENSE



                                                                                                                       hot line
The Department of Defense Inspector General is an independent, objective agency within the U.S. Department
of Defense that was created by the Inspector General Act of 1978, as amended. DoD IG is dedicated to serving                                                 make a difference   Report                        www.dodig.mil/hotline
the warfighter and the taxpayer by conducting audits, investigations, inspections, and assessments that result in                                                800.424.9098
improvements to the Department. DoD IG provides guidance and recommendations to the Department of                                                                                Fraud, Waste, Mismanagement, Abuse of Authority
                                                                                                                                                                                 Suspected Threats to Homeland Security
Defense and the Congress.                                                                                              Defense Hotline,The Pentagon, Washington, DC 20301-1900   Unauthorized Disclosures of Classified Information
